IN THE SUPREME COURT OF THE UNITED STATES
JABBAR RUDOLPH,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PURSUANT TO Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, JABBAR RUDOLPH, asks leave to file the accompanying
Petition for Writ of Certiorari to the Fourth Circuit Court of Appeals without
payment of costs and to proceed in forma pauperis and in support thereof states:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the
Rules of this Court, with Appendix attached, is submitted for filing
along with this Motion.

2.

Petitioner was determined to be indigent by the Fourth Circuit Court
of Appeals and U.S. District Court and counsel was appointed by the
Fourth Circuit Court of Appeals pursuant to U.S.C. ยง 3006A or statute
in which counsel was appointed.
Respectfully submitted,
LAW OFFICE OF JENNIFER HAYNES ROSE
/s/ Jennifer Haynes Rose
Jennifer Haynes Rose
Attorney for Defendant
N.C. State Bar 21036
1135 Kildaire Farm Road, Ste 200
Cary, NC 27511

